            OFFICE OF
     THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION




    SOCIAL SECURITY ADMINISTRATION
  COMPUTER EQUIPMENT PURCHASED WITH
AMERICAN RECOVERY AND REINVESTMENT ACT
              OF 2009 FUNDS

       August 2010   A-04-10-21029



 AUDIT REPORT
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o n fid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a in s t fra u d , wa s te a n d a b u s e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le in fo rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                    Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f In s p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e p e n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro mo te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a g e n c y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a g e n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o mm e n d a tio n s re g a rd in g e xis tin g a n d p ro p o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a g e n c y h e a d a n d th e Co ng re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o p e ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p o we rs th e IG with :

    In d e p e n d e n c e to d e te rmin e wh a t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o mm e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve me n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e wh ile e n c o u ra g in g e mp lo ye e d e ve lo p me n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                            SOCIAL SECURITY
MEMORANDUM

Date:      August 20, 2010                                                           Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Social Security Administration Computer Equipment Purchased with American
           Recovery and Reinvestment Act of 2009 Funds (A-04-10-21029)


           OBJECTIVE
           Our objectives were to determine whether (1) Hewlett Packard (HP) complied with
           contract terms (Contract Number SS00-08-40039) and applicable regulations;
           (2) Social Security Administration (SSA) personnel properly monitored the contract; and
           (3) American Recovery and Reinvestment Act of 2009 (ARRA) funds were properly
           accounted for and used.

           BACKGROUND

           In September 2008, SSA entered into a Blanket Purchase Agreement (BPA) with HP to
           purchase computer workstations, monitors, peripheral equipment, accessories, and
           maintenance services. The ordering period under this BPA was 48 months from the
           date of award with an additional 48-month warranty period for each workstation ordered.

           On February 17, 2009, the President signed ARRA into law. 1 SSA received about
           $1.09 billion in ARRA funds for certain programs and operational purposes. 2 SSA used
           about $2.2 million of these funds between April 30 and May 19, 2009 to purchase about
           2,500 computer workstations and 3,400 monitors against the existing HP BPA. SSA
           purchased the computer equipment for various components, including field offices,
           Office of Disability Adjudication Review sites, regional offices, program service centers,
           and State disability determination services.3 HP used a shipping company to “drop

           1
               Pub. L. No. 111-5.
           2
             Pub. L. No. 111-5, Division A, Title VIII, H.R. 1-71 to H.R. 1-72; and Division B, Title II § 2201(e)(2),
           H.R. 1-339. For example, $500,000,000 was provided for processing disability and retirement workloads,
           including information technology acquisitions and research in support of such activities.
           Pub. L. No. 111-5, Division A, Title VIII, H.R. 1-71.
           3
            Disability determination services are generally State-run agencies that make disability determinations for
           SSA using the Agency’s regulations, policies, and procedures.
Page 2 - The Commissioner

ship”4 the computer equipment to sites identified on the call orders. 5 Table 1
summarizes the quantity of computer equipment purchased by SSA component.

              Table 1: Distribution of Computers and Monitors by Component
                                                  Number of Number of
                  Type of Component
                                                  Computers     Monitors   Total
     Field Offices                                                 1,055            1,055      2,110
     Office of Disability and Adjudication Review
                                                                     621            1,221      1,842
     Offices
     Program Service Centers                                         113              137        250
     State Disability Determination Services                         300              641        941
     Regional Offices                                                243              244        487
     Teleservice Centers                                             106              106        212
     Area Directors Offices                                           15               15         30
     Other                                                            14               27         41
                                                Totals             2,467            3,446      5,913

Equipment prices were based on the General Services Administration’s schedule
contract numbers GS-35F-4663G, GS-35F-0066N, GS-35F-0143R, and GS-35F-0195J.

The Office of Budget, Finance, and Management's (OBFM) mission is to provide
leadership and oversight on key SSA programs and initiatives. The Office of Acquisition
and Grants (OAG), a component within OBFM, issues and administers SSA contracts,
purchases, and grants. The contracting officer, appointed by OAG, is responsible for
the award and administration of SSA contracts. OAG also appoints an
Agency-authorized representative as the Government Contracting Officer’s Technical
Representative (COTR) to monitor contract technical requirements, including oversight
of the contractor’s progress and invoices. For this contract, OAG appointed an
employee from the Office of Telecommunications and Systems Operations (OTSO),
Systems Installation and Integration Management Staff, as COTR. Finally, the Office of
Finance, also a component in OBFM, directs SSA’s central accounting activities and
payments to contractors. For a detailed description of the COTR and contracting
officer’s duties, see Appendix C.

OTSO provides a Web page that details computer equipment purchased, with the type
and quantity scheduled for delivery, and notifies components before delivery. After the
scheduled delivery date, the COTR compares SSA’s delivery schedule to the shipping
contractor’s delivery record and to HP’s invoice—when it is received.6 If all three


4
  The term “drop ship” is when equipment is delivered to a site and unboxed and the trash is removed by
the delivery company if the site desires.
5
    A call order is an order placed against the BPA.
6
 To verify the receipt of the computer equipment ordered, the project officer compares SSA’s delivery
schedule to the shipping contractor’s delivery record.
Page 3 - The Commissioner

records agree, the COTR authorizes the Office of Finance to pay the invoice. If a
discrepancy exists in the shipping contractor’s delivery record or a component notifies
OTSO of a problem, the COTR works with HP, the shipping contractor, and the
component to remedy the matter.

SCOPE AND METHODOLOGY

Our audit tests were limited to the computer equipment purchased with ARRA funds—
call orders 15, 17, 18, and 20. To assess contract compliance, we verified that price
and types of equipment billed on each of the contractor’s invoices agreed with contract
terms. We also tested the contractor’s invoices to ensure SSA made accurate and
timely payments.

We observed computers and monitors to determine whether the equipment was located
in the component identified on HP’s monthly Inventory Report. 7 We selected and visited
53 components located within about 60 miles of an Office of the Inspector General audit
office.8 We tested 274 computers and 311 monitors. For further details on our scope
and methodology, see Appendix B.

RESULTS OF REVIEW
The type and quantity of computer equipment HP provided and prices it charged SSA
adhered to contract terms. Specifically, the quantity of computers and monitors billed
agreed with that ordered, computer equipment was delivered to SSA components as
ordered, and unit prices charged to SSA agreed with contract prices. HP submitted
invoices promptly, and SSA made accurate and timely payments. SSA personnel
properly monitored the contract and ARRA funds were properly accounted for and used.

AGENCY COMMENTS AND OIG RESPONSE

SSA provided technical comments to our report, which we incorporated where
appropriate.




7
 According to the BPA, on the 10th of every month, the Contractor shall provide the COTR and
contracting officer with an Inventory Report. This report should provide a complete inventory of all
computers and monitors delivered and, at a minimum, include the equipment serial numbers, delivery
dates, delivery addresses, delivery site codes, delivery contact information, and call order numbers.
8
 The Office of the Inspector General has 11 Offices of Audit in Atlanta, Georgia; Baltimore, Maryland;
Birmingham, Alabama; Boston, Massachusetts; Chicago, Illinois; Dallas, Texas; Falls Church, Virginia;
Kansas City, Missouri; New York, New York; Philadelphia, Pennsylvania; and San Francisco, California.
Page 4 - The Commissioner


OTHER MATTERS
The total cost of computer equipment and services under the September 2008 HP BPA
is estimated at about $145 million, with an ordering period 48 months from the date of
award. However, the ARRA-funded purchases totaled only about $2.2 million, or about
1.5 percent, of the total estimated BPA costs. At the time of our audit, SSA was still
ordering computer equipment under this BPA.

Concurrent with this review, we audited SSA’s September 2005 contract with HP
(Contract Number SS00-05-40015). Under this contract, SSA purchased about
86,000 computers and about 110,000 monitors. Purchases under both the 2005 and
2008 BPAs were part of SSA’s Workstation Replacement Projects. OTSO was
responsible for oversight of both Projects.

During our audit of the September 2005 HP contract, we identified some areas where
OTSO could improve its contract oversight. Although we found that HP complied with
the contract terms for ARRA-funded computers and SSA properly monitored these
purchases, ARRA-funded purchases represented only a little over 1 percent of planned
purchases under the current HP contract. As such, it is possible that some issues we
identified with the oversight of the September 2005 contract may be applicable to the
September 2008 contract. For example, our review of the September 2005 contract
determined that SSA’s contract oversight would have benefited from a comprehensive
system for tracking and reconciling equipment orders, delivery receipts, quantities
invoiced, and asset inventories. Recommendations will be made in our upcoming report
on contract oversight of HP contract number SS00-05-40015.




                                              Patrick P. O’Carroll, Jr.
                                       Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Contracting Officer and Contracting Officer’s Technical Representative
             Responsibilities

APPENDIX D – OIG Contacts and Staff Acknowledgments
                                                        Appendix A

Acronyms
ARRA   American Recovery and Reinvestment Act of 2009
BPA    Blanket Purchase Agreement
CO     Contracting Officer
COTR   Contracting Officer’s Technical Representative
HP     Hewlett Packard
OAG    Office of Acquisition and Grants
OBFM   Office of Budget, Finance and Management
OTSO   Office of Telecommunications and Systems Operations
SSA    Social Security Administration
                                                                                   Appendix B

Scope and Methodology
Our audit was limited to the computer equipment purchased with American Recovery
and Reinvestment Act of 2009 (ARRA) funds. Purchases under call orders 15, 17, 18,
and 20 were paid for with ARRA funds.

To accomplish our objectives, we:

•   Obtained and reviewed the Hewlett Packard (HP) contract. The contract was not
    modified during the time call orders 15, 17, 18, and 20 were placed.

•   Obtained and reviewed call orders 15, 17, 18, and 20 that the Office of Acquisition
    and Grants placed against the Blanket Purchase Agreement (BPA). For the call
    orders that required multiple delivery locations, the Social Security Administration
    (SSA) attached a delivery spreadsheet that provided quantity, type of equipment,
    and delivery information for each location.

     We randomly selected 59 delivery locations from the 4 call orders to test receipt
      of computer equipment. From the 59 sites, we tested receipt of 580 computers
      and 1,124 monitors.

•   Reviewed Department of Health and Human Services, Project Officers’ Contracting
    Handbook sections.

•   Reviewed pertinent sections of SSA’s policies and procedures and relevant Federal
    laws and regulations.

•   Interviewed SSA’s Office of Telecommunications and Systems Operations staff to
    gain an understanding of contract oversight procedures related to the HP contract.

•   Obtained contractor invoices from the Office of Budget, Finance and Management.
    The contractor submitted 25 invoices under the BPA.

     We reviewed 100 percent of invoices for price testing.

•   Obtained HP's monthly Inventory Reports. 1



1
 According to the BPA, on the 10th of every month, the Contractor shall provide the COTR and
contracting officer with an Inventory Report. This report should provide a complete inventory of all
computers and monitors delivered and, at a minimum, include the equipment serial numbers, delivery
dates, delivery addresses, delivery site codes, delivery contact information, and call order numbers.


                                                  B-1
•   Compared each invoice to HP’s monthly Inventory Report and call orders to
    determine whether the quantity of computer equipment billed agreed.

We observed computers and monitors to determine whether the equipment was located
at the component identified on HP’s monthly Inventory Reports. We selected
53 delivery locations to observe computers and monitors. The components were
selected based on their proximity to the 11 Office of the Inspector General audit offices.2
We selected five components for each of the audit offices, except for the Birmingham
audit office, for which we only selected three components. From HP’s monthly
Inventory Reports, we selected the first 10 computers and monitors listed on the report,
for each of the 53 sites. If a component received fewer than 10 computers or monitors,
we selected 100 percent. In total, we tested 274 computers and 311 monitors.

The entities audited were HP and the Offices of Acquisition and Grants and Finance
within the Office of Budget, Finance and Management. Our review of internal controls
were limited to gaining an understanding of laws, regulations, and policies that govern
Federal contracting procedures necessary to address our audit objectives. We
conducted the audit between August 2009 and April 2010 in Atlanta, Georgia, and
Baltimore, Maryland. The audit was conducted in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.




2
 The Office of the Inspector General has 11 Offices of Audit located in Atlanta, Georgia; Baltimore,
Maryland; Birmingham, Alabama; Boston, Massachusetts; Chicago, Illinois; Dallas, Texas; Falls Church,
Virginia; Kansas City, Missouri; New York, New York; Philadelphia, Pennsylvania; and San Francisco,
California.


                                                 B-2
                                                                    Appendix C

Contracting Officer and Contracting Officer’s
Technical Representative Responsibilities
During the pre-solicitation phase, the Contracting Officer’s Technical Representative
(COTR) had the lead and the Contracting Officer (CO) operated in an advisory capacity.
In the solicitation, evaluation, and award phases, the lead shifted to the CO, with the
COTR acting largely as an advisor. In the post-award phase, the COTR, (acting as the
CO’s authorized representative, within the authority limits designated by the CO),
assumed lead responsibility for some functions, and the CO for others.

PRE-SOLICITATION PHASE                            LEAD      SUPPORT

MARKET RESEARCH                                   COTR         CO
IDENTIFY REQUIREMENTS                             COTR         CO
PLANNING SCHEDULE                                 CO           COTR
STATEMENT OF WORK                                 COTR         CO
TECHNICAL EVALUATION CRITERIA                     COTR         CO
SPECIAL APPROVALS                                 COTR         CO
PREPARE SSA-393                                   COTR         CO

SOLICITATION PHASE

PREPARE SOLICITATION                              CO           COTR
ISSUE SOLICITATION                                CO           COTR
RECEIPT OF OFFERS                                 CO           COTR

EVALUATION & AWARD PHASE

TECHNICAL EVALUATION                              COTR         CO
BUSINESS EVALUATION                               CO           COTR
DISCUSSIONS (IF REQUIRED)                         CO           COTR
CONTRACT PREPARATION & AWARD                      CO           COTR
DEBRIEFING                                        CO           COTR

POST-AWARD PHASE

MONITORING TECHNICAL PERFORMANCE                  COTR         CO
REVIEWING PROGRESS REPORTS                        COTR         CO
INSPECTION AND ACCEPTANCE                         COTR         CO
CONTRACT ADMINISTRATION                           CO           COTR
                                                                     Appendix D

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Kimberly A. Byrd, Director, Atlanta Audit Division

   Frank Nagy, Audit Manager

Acknowledgments

In addition to those named above:

   Valerie Ledbetter, Senior Auditor

For additional copies of this report, please visit our Website at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-04-10-21029.
                                 DISTRIBUTION SCHEDULE


Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions and
Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                         Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
